                                                                            .   .
                              CLOSEOUT of CASE M 96070019


        Our office received allegations from a PI' (the "complainant") in July 1996,
concerning problems he was having with a Co-PI' (the "subject") on an NSF grant.3He
alleged that the subject:

           1) failed to share data collected during the grant;
           2) failed to notify NSF about a patent derived from NSF funding; and
           3) violated ethical standards of his field of science by improperly using
              research materials supplied by the subject for commercial benefit.

        We contacted the subject about the allegations and were sent a response from
the subject's attorney. The attorney explained that the subject's university handled
this matter several years ago and determined that there was no substance to the
allegations. We obtained a copy of the university's report, which stated there was "no
evidence of illegal, improper, or unethical conduct" by the ~ u b j e c t . ~

        With regard to the first allegation, we could find no evidence that the subject
withheld data from the complainant. We requested that the subject share any data
collected under the grant, and the subject, through his attorney, claimed that no data
has been withheld. Without additional information about what was allegedly
withheld, we feel that there is insufficient evidence to pursue the allegation.

         With regard to the second allegation, we reviewed the U.S. Patent and Trade
Office patent database and found that the subject had been awarded a patent5 that
referenced a paper supported by the complainant's NSF grant.6 Despite the reference,
we could find no direct evidence of connections between the patent and the
complainant's NSF-funded research. The patent does not include any reference to data
collected under the NSF-funded research, and does not rely on any specific materials
that were tested under the NSF grant. Therefore, no further action will be taken on
this allegation.

        With regard to the third allegation, we agree with the complainant that the
subject showed questionable judgement by giving the research material to his
commercial affiliate without discussing the transfer with the PI in advance. Although
traditionally researchers in this field have freely transferred research materials for non-
commercial purposes, we recognize that this practice is being replaced over time by
more formalized agreements, which specify acceptable uses and rights associated with
research materials. We conclude that the subject's transfer of materials was of
questionable judgement and showed a lack of collegiality, but that his actions, in this
           1   [redacted]
           [redacted]
           The NSF award, [redacted], was [redacted]." Dr. [redacted] was the PI; a total of [redacted]
support was provided for [redacted] years. The purpose of the grant was to produce [redacted].
         4
           [redacted] letter to the complainant [redacted].
           U.S. Patent [redacted] entitled "[redacted]," issued [redacted].
           The patent references the NSF-supported paper and two other documents as sources of
"[redacted] ."


Closeout                                      Page 1 of 2
                            n                                        n
                             CLOSEOUT of CASE M 96070019


case, do not rise to the level of misconduct in science. Therefore, no further action
will be taken on this allegation

           This inquiry is closed and no further action taken in this case.

           CC: IG, Integrity.




Closeout                                  Page 2 of 2
